Certificate of Service
2/18/20
Herewith are 40 of the paperbooks
No. 19-889

IN THE

Supreme Court of the United States
KAUFMAN COUNTY; MATTHEW HINDS,
PETITIONERS,

v.
EUNICE J. WINZER, INDIVIDUALLY AND ON BEHALF
OF THE STATUTORY BENEFICIARIES OF GABRIEL A. WINZER;
SOHELIA WINZER; HENRY WINZER, RESPONDENTS.
ON A PETITION FOR CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR AMICI CURIAE TEXAS ASSOCIATION OF
COUNTIES, TEXAS MUNICIPAL LEAGUE, TEXAS
MUNICIPAL LEAGUE INTERGOVERNMENTAL RISK
POOL, MISSISSIPPI MUNICIPAL SERVICE COMPANY,
AND NATIONAL ASSOCIATION OF POLICE
ORGANIZATION IN SUPPORT OF PETITIONERS

I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner
indicated below. Service by first-class mail addressed as follows:
See attached

Respectfully Submitted,
ROD CURRY
CURRY & TAYLOR LLC
111 SECOND AVE NE
SUITE 300
ST. PETERSBURG, FL 33701
(202) 350-9073

Stephen Cass Weiland
Patton Boggs LLP
2000 McKinney Avenue, Suite 1700
Dallas, TX 75201
Mr. Matthew Joseph Kita
PO Box 5119
Dallas, TX 75208-9119
Daryl K. Washington
325 N. St. Paul, Suite 3950
Dallas, Texas 75201

